<html>
<title> - CLIMATE CHANGE, PART IV:. MOVING TOWARDS A. SUSTAINABLE FUTURE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                          CLIMATE CHANGE, PART IV:.
                            MOVING TOWARDS A.
                           SUSTAINABLE FUTURE

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 24, 2020

                               __________

                           Serial No. 116-120

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
      


                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                             
                             
                          ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
41-980 PDF            WASHINGTON : 2020 
 
 
 
 
 
 
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Wm. Lacy Clay, Missouri              Jim Jordan, Ohio
Stephen F. Lynch, Massachusetts      Paul A. Gosar, Arizona
Jim Cooper, Tennessee                Virginia Foxx, North Carolina
Gerald E. Connolly, Virginia         Thomas Massie, Kentucky
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             Gary Palmer, Alabama
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Clay Higgins, Louisiana
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Chip Roy, Texas
Jackie Speier, California            Carol D. Miller, West Virginia
Robin L. Kelly, Illinois             Mark E. Green, Tennessee
Mark DeSaulnier, California          Kelly Armstrong, North Dakota
Brenda L. Lawrence, Michigan         W. Gregory Steube, Florida
Stacey E. Plaskett, Virgin Islands   Fred Keller, Pennsylvania
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California

                     David Rapallo, Staff Director
                    Britteny Jenkins, Chief Counsel
                          Amy Stratton, Clerk

                      Contact Number: 202-225-5051

               Christopher Hixon, Minority Staff Director
                                 ------                                

                      Subcommittee on Environment

                   Harley Rouda, California, Chairman
Rashida Tlaib, Michigan              Mark E. Green, Tennessee, Ranking 
Raja Krishnamoorthi, Illinois            Minority Member
Jackie Speier, California            Paul A. Gosar, Arizona
Jimmy Gomez, California              Gary Palmer, Alabama
Alexandria Ocasio-Cortez, New York   Bob Gibbs, Ohio
Eleanor Holmes Norton, District of   Kelly Armstrong, North Dakota
    Columbia
    
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on September 24, 2020...............................     1

                               Witnesses

Robert C. Orr, Ph.D, Dean, University of Maryland School of 
  Public Policy
Oral Statement...................................................     6
Rachel Cleetus, Ph.D, Policy Director, Climate and Energy 
  Program, Union of Concerned Scientists
Oral Statement...................................................     8
Christopher Castro, Senior Advisor to Orlando Mayor Buddy Dyer, 
  Director of Sustainability & Resilience, City of Orlando
Oral Statement...................................................    10
Kevin Dayaratna, Ph.D., Principal Statistician, Data Scientist, 
  and Research Fellow, Institute for Economic Freedom
Oral Statement...................................................    12
Reed Schuler, Senior Policy Advisor, Office of the Governor, 
  Governor Jay Inslee
Oral Statement...................................................    14

Written opening statements and statements for the witnesses are 
  available on the U.S. House of Representatives Document 
  Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              

Documents entered into the record during this hearing are 
  available at: docs.house.gov.

  * Pictures; submitted by Rep. Gibbs.



                        CLIMATE CHANGE, PART IV:

                            MOVING TOWARDS A

                           SUSTAINABLE FUTURE

                              ----------                              


                      Thursday, September 24, 2020

                   House of Representatives
    Subcommittee on Civil Rights and Civil 
                                  Liberties
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 2:17 p.m., in 
room 2154, Rayburn House Office Building, Hon. Harley Rouda, 
presiding.
    Present: Representatives Rouda, Maloney, Tlaib, Gomez, 
Norton, Green, Palmer, and Gibbs.
    Mr. Rouda. The committee will come to order. Without 
objection the chair is authorized to declare a recess of the 
committee at any time.
    I now recognize myself for an opening statement.
    This is the final hearing in the Environmental Subcommittee 
series on climate change. Last year, the subcommittee explored 
the early scientific consensus on climate change, a reality 
confirmed in the 1970's and 1980's by internal scientists at 
major fossil fuel companies such as Exxon and Shell concluded 
that climate change was real, and it was caused by fossil 
fuels. This reality was later denied by those same companies 
once the United States began to take action to address climate 
change and global warming.
    In subsequent hearings and briefings the subcommittee 
examined and laid out the current devastating consequences of 
climate change for public health, the frequency and severity of 
natural disasters, and our economic well-being.
    We are seeing the devastating effects of climate change 
right now. In addition to the devastating loss of more than 
200,000 lives from the coronavirus, we are also seeing climate-
fueled disasters impact the safety and security of Americans 
across the country. The entire West Coast of the United States 
is currently experiencing debilitating fires. Washington 
Governor Jay Inslee said it best, ``These are not just 
wildfires. These are climate fires.''
    We are experiencing destruction and loss of life on an 
unprecedented scale, and there are still many months of 
expected fire activity ahead. My home state of California's 
wildfire season is already the most severe in modern history. 
More than 2.5 million acres have already burned, nearly 20 
times what had burned at this time last year. In fact, the five 
largest wildfires in California's history have all occurred in 
the last three years, and one on these five wildfires, three 
have started this year.
    As a result of warming ocean waters we are currently 
experiencing what is shaping up to be the worst hurricane 
season in history. The breakneck pace for named hurricanes has 
far outpaced the 11-storm seasonal average. In fact, we have 
already run out of names and are now using the Greek alphabet 
to name storms. This has only happened one other time in our 
history.
    And to make matters worse, in August, amid a historic heat 
wave in the West, Death Valley, California, saw 130 degrees 
Fahrenheit, which ranks among the top three highest 
temperatures ever measured on the planet at any time, and may, 
in fact, be the highest ever.
    I have often said that the difference between taking 
climate action and the continued abdication of our 
responsibilities will result in either a world of opportunity 
or apocalyptic reality. Unfortunately, we are already seeing 
what a lack of action means. Action is our only choice, 
especially when you take into effect how inaction on climate 
change would affect our economy. And let's be clear, this is 
not a partisan perspective. It is what we are being told by the 
experts.
    According to the Trump administration's own Fourth National 
Climate Assessment, continued greenhouse gas emissions could 
decimate up to 10 percent of the gross national product by 
2100. However, if we choose to act on climate change and if 
nations meet the Paris Climate Accord's goal of maintaining a 
1.5-degree Celsius rise in global temperature by 2100, global 
GDP would increase by $20 trillion, compared with a 2-degree 
Celsius rise. Again, action on climate makes good economic 
sense.
    By recognizing the challenge at hand, seizing this moment 
and prioritizing justice and equity in the transition to the 
future, we have the potential to usher in a new era of economic 
growth, job creation, and opportunity for all Americans. While 
the challenge is great, the opportunities are even greater. 
Harnessing American ingenuity and innovation through investment 
and incentives will create the jobs of the future. Indeed, it 
already has.
    Developing and deploying new and emerging technologies for 
reducing greenhouse gas emissions and mitigating existing 
carbon pollution is good for business. Some of the largest 
companies are already pivoting and making sizable investments 
in these tools. Advancing strategies to de-carbonize the 
industry and achieve net zero emission goals will result in 
economic growth. We are already seeing cities and states across 
the country rise to the challenge in the absence of Federal 
leadership.
    The Federal Government is the largest employer in the 
United States, the largest purchaser of goods and services in 
the world, and an important partner to states, localities, 
tribal governments, the public and private sectors, and other 
countries. The Oversight Committee's climate change agenda aims 
to utilize the Federal Government's unique position in the 
fight against climate change by making important reforms in the 
pursuit of greener, more efficient, and more just policies, 
programs, and processes. Alongside Chairwoman Maloney, I am 
proud to introduce the Federal Agency Climate Planning 
Resilience and Enhanced Preparedness Act as part of this 
forward-looking agenda.
    Climate change is an existential problem. It threatens 
every aspect of humanity's existence. The decisions we make now 
will affect life on Earth for generations to come. We cannot 
afford to be idle. We do not have time to waste. It is actually 
pretty simple. If we refuse to rise to meet this challenge, our 
children, our grandchildren, and future generations will be 
left with a planet that none of us want to see, and history 
will judge the actions we take now. This is an inflection 
point. When future generations look back at this moment, will 
we be able to say that we did all we could, or will they tell 
us that we let them down?
    The eyes of the future are watching, and we will not get a 
second chance to get this right. We must look beyond our time 
to ensure a just and livable future for all.
    Thank you. I now turn to the subcommittee's ranking member, 
Mr. Green, who I welcome to the subcommittee as our new ranking 
member, the esteemed colleague of ours from Tennessee, for his 
opening statement.
    Mr. Green. Thank you, Chairman, and I really appreciate and 
am excited about being on the committee and the opportunity to 
work with you on this very important issue. I want to thank the 
witnesses that will be here today and their willingness to 
appear before the committee to discuss the path forward on a 
sustainable future.
    I would like to begin by discussing the amazing progress 
the United States has made on sustainability. We are leading 
the world in reducing emissions. According to the International 
Energy Agency, and I quote, ``The United States saw the largest 
decline in energy-related CO2 emissions in 2019, on a country 
basis. Because these reductions have come via innovation and 
market forces, energy costs have significantly decreased 
nationwide.''
    Over the summer, the EPA released its annual Air Quality 
Report. From 2017 to 2019, under the leadership of the 
President, air pollution emissions have dropped seven percent. 
Due to these falling emissions, the United States saw a 
substantial improvement in air quality. The number of days 
listed as unhealthy for sensitive groups in the Air Quality 
Index dropped by 34 percent from 2017 to 2019.
    The EPA has made large strides in many areas when it comes 
to environmental protection. According to the EPA Administrator 
Andrew Wheeler, quote, ``EPA has delisted 27 Superfund sites, 
the most in a single year since 2001, and plans to delist 27 
more this year. The EPA has also helped finance more than $40 
billion in clean water infrastructure, supporting 7,100 high-
priority projects and 27,000 jobs during President Trump's 
first term,'' end quote.
    Although it is not widely reported by the media, the Trump 
administration's EPA is continuing to hold corporations 
accountable for environmental crimes. Earlier in September, the 
EPA reached a settlement with Daimler Chrysler, Daimler AG, for 
$1.5 billion over Mercedes-Benz's emissions cheating scandal. 
These statistics are truly amazing. The Trump administration is 
making substantial progress to protect the environment while 
simultaneously growing the economy, and I know firsthand that 
Americans across the country are also taking the initiative to 
protect the environment.
    Earlier this year, I had the idea to plant trees in 
Tennessee's highway interchanges, which not only would reduce 
CO2 through both the withdrawal of it by trees and decrease the 
production of CO2 from the mowing. The icing on the cake is 
beautification. I mean, who doesn't love a tree? Because of 
House ethics rules, though, I couldn't really be involved with 
it, so I shared my idea with friends back home who formed an 
entity and are going to be planting trees in interchanges all 
across Tennessee starting in November.
    What we cannot do, though, is resort to fear tactics to 
scare people into action regarding climate change. It is not 
healthy or productive, and the mental health impacts regarding 
the fear of climate change are growing at a staggering rate. A 
survey of 30,000 people worldwide found that nearly all of 
those people believed climate change would make humanity 
extinct in the coming years.
    Doomsday scenarios, almost all of which have been proven 
wrong, push people out of this discussion. We have all heard 
them and we have heard the revision of those predictions each 
time they fail, and I believe they only serve to push 
reasonable people out of the discussion. It is an important 
discussion.
    I hope that our committee can move past those doomsday 
scenarios and headlines and focus on the policy steps we can 
take, we can be taking right now, and what their costs and 
impacts really are. After multiple hearings on climate change 
this year, I am encouraged that we will be hearing from 
majority witnesses who will hopefully describe a sensible path 
forward to safeguard America's health, unlike unrealistic pipe 
dreams such as the Green New Deal. According to a study 
performed a minority witness, one part of the Green New Deal 
would cost an average family $165,000 and wipe out 5.2 million 
jobs with negligible climate benefit. I fear that a premature 
move away from fossil fuels, particularly in poor areas, means 
that they will continue to have little access to the type of 
cheap, reliable energy that enables economic growth and allows 
for the provision of clean water and sanitation, widespread 
vaccination, and preventive child health services.
    I know that from my constituents in Tennessee clean air and 
clean water are vital to their livelihoods and well-being, and 
as for me, I am a fly fisherman. I want my streams clear and I 
want to trout in them not to glow.
    It is important, also, for a robust economy. The United 
States is fortunate to have copious clean energy natural 
resources, and we must use those resources to advance American 
interests while continuing to lead the world in emission 
reductions. Inexpensive, accessible energy has led to 
technological medical and other advances that have driven the 
American economy and increased U.S. life expectancy.
    Thank you, Mr. Chairman, and again, I really look forward 
to working with you.
    Mr. Rouda. Thank you, Ranking Member, and likewise looking 
forward to working with you as well.
    At this time I have the honor to recognize the chairwoman 
of the entire Oversight Committee, Chairwoman Maloney, and also 
I would like to express my thanks for her tremendous leadership 
in multiple areas, from helping save the United States Postal 
Service, making sure we have a fair and just census, and for 
helping on these key environmental issues that our country 
faces. Thank you for your leadership.
    Mrs. Maloney. Thank you so much, Mr. Chairman and Mr. 
Ranking Member, for having this incredibly important hearing.
    As we commemorate Climate Week 2020, I want to start by 
commending Chairman Rouda on his remarkable leadership on this 
subcommittee and on one of the most urgent global crises 
defining the modern era. From devastating fires in the West to 
historic hurricanes in the South to rising sea levels that 
threaten 40 percent of America's population near our 
coastlines, the destruction of climate change is mounting and 
menacing.
    From his first days in Congress, Chairman Rouda has 
recognized the existential threat that climate change poses to 
Americans and people around the world. With this series of 
hearings he has demanded accountability from fossil fuel 
companies. He has exposed their undue influence over this 
administration, and he has demonstrated a steadfast 
determination to meet these challenges to ensure a more 
sustainable and livable future for our children and 
grandchildren.
    Building on Chairman Rouda's great work today I released 
the Oversight Committee's Climate Change Agenda. This is a set 
of bills to implement recommendations from the Select Committee 
on the Climate Crisis that fall within our jurisdiction. Our 
Committee's Climate Change Agenda focuses on the Federal 
Government's unique position in the fight against climate 
change. The Federal Government is the largest employer in the 
United States and the largest purchaser of goods and services 
in the world. It is an important partner to states, localities, 
tribal governments, the public and private sectors, and other 
countries. Our agenda takes advantage of this leverage to move 
our country forward.
    For example, Chairman Rouda and I are introducing a new 
bill called the Federal Agency Climate PREP Act. Senator Amy 
Klobuchar is introducing the same bill in the Senate. Our 
legislation is modeled on two Executive orders issued by 
President Obama to build climate change preparedness, 
mitigation, resiliency into all aspects of Federal Government 
operations. Our bill would require each agency to create a 
climate change adaptation plan, with strategies for confronting 
risk to agency missions, operations, and programs. These plans 
would address any agency's practices that worsen climate change 
threats, and they would identify strategies to tackle the 
disproportionate impacts of climate change on front-line 
communities and vulnerable populations. Our bill also would 
establish a Council on Federal Agency Climate PREP to guide the 
implementation of Federal preparedness and resilient actions 
and to work with state and local leaders to improve Federal 
efforts to support these goals.
    An effective Federal response to climate change begins with 
evidence-based planning that recognizes the magnitude of the 
threat and responds accordingly. American lives, livelihoods, 
ecosystem security, prosperity depend on strategic and whole-
of-government efforts in the face of climate crisis. Our 
committee's Climate Change Agenda also includes other 
innovation-and action-oriented legislation by our colleagues, 
including Representatives Don McEachin, Julia Brownley, Peter 
Welch, Matt Cartwright, and many others.
    For example, it includes a bill I introduced with 
Representative Gerry Connolly, the chairman of our Subcommittee 
on Government Operations, and Representative Jared Huffman, 
that would build a fleet of the future at the Postal Service by 
upgrading its vehicles to electric or zero-emissions by 2040.
    Today's hearing is an important opportunity to look forward 
to identify change like these that are doable, that are within 
our power, and then to take action. I thank you, Chairman 
Rouda, again, for your invaluable partnership and your 
leadership on this critical, critical issue, and I yield back.
    Mr. Rouda. Thank you, Chairwoman Maloney, and again, thank 
you for your incredible leadership. Ranking Member, would you 
like to add any additional commentary before we go to the 
witnesses?
    OK. Now I would like to introduce our witnesses. Our first 
witness today is Robert C. Orr, PhD, who is the dean of the 
University of Maryland School of Public Policy. Next, we will 
hear from Rachel Cleetus, PhD, who is the Policy Director of 
the Climate and Energy Program of the Union of Concerned 
Scientists. Then we will hear from Christopher Castro who is 
Senior Advisor to Orlando Mayor Buddy Dyer and Director of 
Sustainability and Resilience for the city of Orlando. We will 
also hear from the Republican witness, Kevin Dayaratna, PhD, 
who is a Principal Statistician, Data Scientist, and Research 
Fellow at the Institute for Economic Freedom for The Heritage 
Foundation. Finally, we will also hear from Reed Schuler, who 
is the Senior Policy Advisor at the Office of the Governor for 
Governor Jay Inslee of Washington State.
    The witnesses will be unmuted so we can swear them in. 
Please raise your right hands.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Mr. Orr. I do.
    Ms. Cleetus. Yes.
    Mr. Castro. I do.
    Mr. Dayaratna. I do.
    Mr. Rouda. Let the record show that the witnesses answered 
in the affirmative. Thank you.
    Without objection, your written statements will be made 
part of the record. With that, Dr. Orr, you are now recognized 
for your testimony.

STATEMENT OF ROBERT C. ORR, PhD, DEAN, UNIVERSITY OF MARYLAND, 
                    SCHOOL OF PUBLIC POLICY

    Mr. Orr. Thank you, Mr. Chairman. Chairwoman Maloney, 
Chairman Rouda, Ranking Member Green, and members of the 
subcommittee, thank you for this opportunity to testify before 
you.
    Today we face a climate reckoning that imperils our planet 
and our country. In the last month alone we have witnessed the 
American West burn, the South flood, and the Midwest ripped by 
severe storms, all indications of the new abnormal that climate 
change visits upon us year after year.
    I will focus my remarks today on enhancing our economic 
transformation and competitiveness and building our resilience 
to inevitable climate shocks. Addressing climate change is at 
its core an issue of economic development strategy. The 
countries that transition their economies most adroitly will 
benefit the most. Around the world, governments are using their 
policy levers to position themselves. Unfortunately, the United 
States, at the Federal level, is moving in the opposite 
direction, letting others seize the commanding heights of the 
21st century economy.
    We are seeing this competition play out in many areas, 
three of which I will discuss today. First, renewable energy. 
Looking at the $2.6 trillion investment in renewable energy 
capacity over the last decade, China has captured 31 percent of 
the total and the U.S. only 14. There is only one U.S.-based 
company in the top ten global wind manufacturers. This is a 
consequence of deliberate policy efforts by governments. 
Meanwhile, the United States is asleep at the switch.
    Historically, the Federal Government played a key role in 
the development of renewable energy and it must do so again. 
While many governments are using economic recovery funds to 
stimulate their industries of the future, in the U.S. we have 
committed $72 billion of public money to support fossil fuel, 
compared to only $27 billion for renewable energy. As we invest 
in the recovery, the extension of tax incentives for renewable 
energy generation should be central.
    Second, policy and market forces are shifting the 
automotive industry toward electrification. Top automotive 
manufacturers plan to spend more than $300 billion globally 
over the next 10 years to increase production of electric 
vehicles, and 17 countries, and now California, have announced 
the phase-out of the internal combustion engine altogether in 
passenger cars. Yet China commands 50 percent of the electric 
vehicle production and produces 11 times the number of battery 
cells than the U.S., again, asleep at the switch.
    The European Union has placed support of the clean energy 
transition at the core of its 750-billion-euro recovery 
package. China, Korea, and others the same. In the U.S., 
nothing. The significant downward revision of the CAFE fuel 
standards has had the effect of taking our foot off the 
accelerator just as others are racing toward the electric 
transition. The Federal Government needs to reintroduce 
ambitious mileage standards. Our auto companies can compete.
    Third, smart electrical grids have arisen as the critical 
infrastructure of the 21st century. Over the last decade, China 
has invested more in its electric grid than the United States 
has in all but one of those 10 years. China has prioritized 
ultra-high voltage transmission grids in its pandemic recovery 
plan and will spend nearly $27 billion in 2020 alone.
    The scale of investment needed in this area demands a 
coherent U.S. Federal Government response. A bipartisan 
infrastructure package that privileges great modernization in 
partnership with the utility industry is both necessary and 
possible.
    Even as we pursue competitive strategies to mitigate 
climate change, we must also dramatically increase our 
resilience to the profound and increasing impacts of climate 
change. First, health. Extensive research points to tight 
linkages between climate change and the adverse health impacts 
of air pollution and heat-related illnesses. The U.S. Federal 
Government can help address growing climate health nexus by 
fully funding research into extreme weather, particularly 
through NOAA, as well as health impacts of extreme weather by 
NIH.
    Second, increased resilience will require addressing our 
public and private insurance system's declining ability to 
adequately protect Americans against risk in the face of 
climate change. The Federal Government's National Flood 
Insurance Program and Federal Crop Insurance Corporation need 
to be reviewed and reformed in light of the changing risk 
equation posed by climate change, and if they are not they will 
continue to support, at increasing cost to taxpayers, behaviors 
incompatible with our new climate realities.
    Finally, climate change is a global problem that requires 
global solutions, and the United States has been central in 
organizing the world to respond to this challenge from the 
beginning. In the past four years, however, the United States 
has abdicated its global leadership position. Two days ago, 
President Xi Jinping of China announced China's intent to reach 
net-zero climate emissions before 2060, while the European 
Union announced plans to do so before 2050. The United States 
can and must move from missing in action to leading the action. 
The Federal Government can transform itself from ballast to 
catalyst by leading national efforts to leverage the many U.S. 
strengths to promote a race to the top with other countries, a 
race that everyone can win by doing more, faster.
    Thank you, Mr. Chairman.
    Mr. Rouda. Thank you, Dr. Orr. Dr. Cleetus, you are now 
recognized for your testimony.

STATEMENT OF RACHEL CLEETUS, PhD, POLICY DIRECTOR, CLIMATE AND 
          ENERGY PROGRAM, UNION OF CONCERNED STUDENTS

    Ms. Cleetus. Hello, and thank you, Chairwoman Mahoney, 
Chairman Rouda, Ranking Member Green, and members of the 
committee for providing me the opportunity to testify here 
remotely today. My name is Rachel Cleetus, and I am the policy 
director for the climate and energy program at the Union of 
Concerned Scientists.
    Our nation faces multiple compounding crises right now--the 
COVID-19 pandemic, an economic crisis, the climate crisis, and 
a longstanding crisis of systemic racism. These crises have 
also laid bare and exacerbated the fundamental socioeconomic 
inequities of our society. We must respond with bold, 
multifaceted, and just solutions at the Federal level, which 
can help our Nation recover and rebuild from the current crises 
while also setting us on a path to a fairer, healthier, more 
prosperous, and climate-safe economy in the long term.
    We have just passed a tragic milestone of 200,000 deaths 
from COVID-19, 6.9 million cases. Millions of people are out of 
work, many facing a loss in unemployment benefits, potential 
eviction, loss of health insurance.
    Meanwhile, the climate crisis continues unabated. As 
Chairman Rouda says, we are in the midst of a devastating, 
unrelenting hurricane and wildfire season, and these climate 
extremes we are experiencing are very costly, with the Nation 
experiencing multiple billion-dollar disasters. The science is 
clear that if we fail to limit our
    [inaudible] emissions,these kinds of impacts will worsen 
considerably.
    That is why, increasingly, across the board, including 
major financial sector assets like bonds, businesses, 
regulators in the financial sector, many are sounding the 
alarm. The Government Accountability Office has repeatedly 
flagged climate change as a key area of fiscal exposure for the 
Federal Government, calling for better management and risk 
reduction.
    Our own research at UCS shows that under the high sea rise 
level scenario, by 2045 about 325,000 coastal properties, worth 
$136 billion will be at risk of chronic flooding, and that 
rises to approximately 2.5 million U.S. coastal homes and 
commercial properties currently worth more than $1 trillion by 
the end of the century. Without global action to reduce heat-
trapping emissions, our research also shows that the number of 
days per year when the heat index exceeds 100 degrees 
Fahrenheit would more than double from historical levels to an 
average of 36 across the country by midcentury and increase 
fourfold to an average of 54 by late century.
    UCS has also analyzed the threats of sea level rise to 
military installations in the U.S., which would pose 
significant risks to servicemembers and essential operations. 
For example, of the 18 military installations along the coasts 
that we analyzed, by 2050 most of these installations will see 
more than 10 times the number of floods. Eight bases are at 
risk of losing between 25 to 50 percent or more of their land 
by the end of the century, and four are at risk of losing 75 to 
95 percent of their land. By midcentury, more military 
installations in the U.S. could experience nearly five times 
the
    [inaudible].
    The good news is we can limit the costs and harms of 
climate change if we make investments in a just and equitable 
transition to a low-carbon, climate-resilient economy 
immediately. We have to get on this task. States, cities, 
businesses, and ordinary people are leading the way, but we 
cannot achieve our goals without robust Federal action.
    The U.S. must contribute its fair share to global goals by 
achieving net-zero carbon emissions no later than 2050 and 
cuttings its emissions by at least half by 2030. We need 
Federal policies to use renewable energy and efficiency
    [inaudible] modernized electricity, electrifying 
transportation, and other
    [inaudible] investing in R&D, investing in climate-smart 
agricultural and forestry practices. This is a part of our 
future that we should embrace, because not only will we cut 
carbon emissions, we can also create jobs, build public health, 
and address longstanding inequities.
    We have to invest proactively in resilience to help prepare 
and protect communities. The climate agenda must address the 
cumulative burden of toxic and harmful pollution in 
overburdened communities, ensuring that they also benefit 
directly and equitably from our investments in clean energy. A 
fair conviction that is also centered on needs of working 
people, making sure that they are providing retiree pensions 
and health benefits, training, job opportunities, and 
investments in communities that are being hurt as they move 
away from fossil fuels.
    Our ability to solve these challenges like COVID-19 and the 
climate crisis depend on working together with the global 
community. We urge Congress to engage directly and move forward 
with a direct diverse set of statements to pass legislation. We 
welcome the majority report from the House Select Committee and 
the climate agenda that has been put forward by this committee 
today by Chairwoman Maloney and Chairman Rouda.
    I want to say that our children deserve to know that we 
will come together to do our utmost to safeguard their future 
in the face of the climate crisis, just as we are trying to do 
right now in the midst of COVID-19. Let us not get into short-
sightedness and selfishness. Let's be guided by the science and 
do what is right. States shouldn't be...
    [inaudible].
    Thank you so much for the opportunity to testify today.
    Ms. Tlaib.
    [Presiding.] Thank you so much, Doctor. I will now 
recognize Director Castro. You are now recognized for your 
testimony.

  STATEMENT OF CHRISTOPHER CASTRO, SENIOR ADVISOR TO ORLANDO 
 MAYOR BUDDY DYER; DIRECTOR OF SUSTAINABILITY AND RESILIENCE, 
                        CITY OF ORLANDO

    Mr. Castro. Thank you and good afternoon, Chairman Rouda, 
Chairwoman Maloney, Ranking Member Green, and distinguished 
members of the subcommittee. It is with great honor and 
privilege that I appear before you today. My name is Chris 
Castro, and over the last 14 years I have devoted my studies 
and my professional career and my life to advancing solutions 
to the climate crisis and implementing sustainability 
strategies that aim to improve health and well-being of our 
community, our environment, and our economy.
    Today I come before you on behalf of the city of Orlando, 
Florida, in my capacity as the senior climate advisor to 
Orlando Mayor Buddy Dyer and the director of the City's Office 
of Sustainability and Resilience. In this role, over the last 
six and a half years, I have helped to foster a wide array of 
public policies, community programs, and creative partnerships 
that aim to advance local climate solutions and our collective 
vision of Orlando becoming a model city of the future, one of 
the most environmentally friendly, socially inclusive and 
equitable, and economically vibrant cities in America.
    Orlando has quickly become a critical player in the climate 
leadership and innovation in Florida and in the Southeastern 
United States. We became an early signatory of the Paris 
Climate Agreement for cities in 2016, joined the Global 
Covenant of Mayors for Climate and Energy, sit on the steering 
committee of the national U.S. Climate Mayors network, and 
currently a winner in the American Cities Climate Challenge.
    In Orlando, we utilize the most accurate science and data 
to determine our client action strategy. After performing an 
annual greenhouse gas emissions inventory for the last 12 
years, we have uncovered that the majority of our carbon 
emissions, 72 percent, were associated with energy use in 
commercial and residential buildings, followed 25 percent from 
transportation, and the rest from our waste system.
    Following a year's worth of community engagement and 
feedback sessions we developed the Green Works Orlando 
Community Action Plan, which provides a comprehensive set of 
goals, objectives, and strategies that are guiding our pathway 
forward toward a net-zero carbon future by 2050.
    With the remainder of my time I plan to share high-level 
highlights of these solutions.
    The first priority in addressing the climate crisis, we 
have been boosting energy efficiency in existing buildings and 
spurring green construction. With buildings contributing the 
vast majority of our emissions, and often wasting up to 30 
percent of the energy used, we have prioritized energy 
efficiency in buildings as one of the most cost-effective and 
impactful climate solutions today.
    Learning from the efficiency investments made through the 
EECBG funding provided during the Recovery Act, the city 
decided to pursue a $17.5 million municipal green bond to 
invest in city property, retrofitting outdated city buildings 
with high-efficiency technologies like LED lighting and HVAC 
technologies, building controls, and even rooftop solar. Today, 
we are saving over 20 percent of the energy when compared to 
the baseline across over 7 million square feet of real estate 
and more than $2 million in operational cost savings per year.
    Regarding new construction, we have established a mandatory 
green building policy for the city, similar to the Federal 
rules, resulting in LEED certification for city-owned buildings 
since 2012. And to go further, we have established green 
affordable housing criteria for city-supported housing projects 
that begin to address high energy burdens in low-income 
communities.
    Our second priority focuses on decarbonizing our 
electricity generation and rapidly advancing renewable energy. 
Despite the strong dependence on fossil fuels, over the last 
few years a solar panel installer has become the fastest-
growing job of any sector in the state of Florida, but yet we 
only get less than two percent of our electricity from this 
abundant resource.
    In partnership with our hometown utility, OUC, we are 
ramping up solar in our community as a green economic 
development strategy, installing rooftop solar arrays on city 
buildings, solar canopies over parking lots, ground-mounted 
solar on brownfield sites, and even floating solar at the 
Orlando International Airport stormwater ponds.
    Our ultimate goal in Orlando is to achieve net-zero carbon 
and 100 percent clean and renewable energy sources by 2050 
citywide.
    Our third priority focuses on accelerating the adoption of 
zero-emission electric vehicles and E-buses. With 
transportation contributing to 25 percent of our emissions in 
Orlando, we have been looking to address this by enhancing more 
safe and alternative transportation options to reduce vehicle 
miles traveled in the city as well as ramping up EVs. Today 
more than 500 publicly available EV charging stations have been 
installed throughout the city at parks, rec centers, at 
different parking garages, even major destinations, making us a 
top EV-ready destination.
    We are purchasing more electric vehicles for our city fleet 
every single year, and in partnership with the Central Florida 
Regional Transit Authority, known as LYNX, we will begin to 
deploy electric buses this month in an effort to transition the 
entire public transportation fleet to electric and alternative 
fuel by 2030.
    In closing I wanted to highlight a few ideas of Federal 
support that could propel our efforts even further. One, I 
focused on refunding the EECBG program that has catalyzed clean 
energy implementation at local levels over the last 10 years. 
Second, extend the investment and production tax credits for 
wind, solar, electric vehicles, and batteries, and consider 
reallocation of Federal subsidies that exist in other legacy 
technologies.
    Standardize the cost-effectiveness tests used at state 
energy efficiency programs to ensure that efficiency is 
considered a ``first fuel'' in utility rulemaking. Assist 
public transit agencies in electrifying their bus fleets by 
expanding the Low-No grants and other financing mechanisms and 
continue to explore putting a price on carbon or another form 
of valuing the externalities that are currently accelerating 
the problem.
    If you take anything away from this testimony, I hope that 
you realize that the work that is happening at the local level 
in cities like Orlando is not only happening, but it is showing 
measurable progress, and momentum is building. But there is no 
doubt that we need Federal climate leadership, partnership, and 
support, now more than ever, to help double-down on the climate 
solutions that advance a greener and more equitable future for 
all Americans.
    Thank you all for your service and I look forward to your 
questions. I yield back.
    Ms. Tlaib. Thank you so much, Director Castro. I want to 
thank you and now recognize Dr. Dayaratna. You are now 
recognized for testimony.

    STATEMENT OF KEVIN DAYARATNA, PhD, (MINORITY WITNESS), 
 PRINCIPAL STATISTICIAN, DATA SCIENTIST; RESEARCH FELLOW, THE 
                      HERITAGE FOUNDATION

    Mr. Dayaratna. Thank you Chairman Rouda, Ranking Member 
Green, and other members of the subcommittee. Thank you for the 
opportunity to testify about climate change and sustainability. 
My name is Kevin Dayaratna. I am the Principal Statistician, 
Data Scientist, and Research Fellow at The Heritage Foundation 
Center for Data Analysis. The views I express in this testimony 
are my own and should not be construed as representing any 
official position of The Heritage Foundation.
    Energy is literally the basis of anything and everything we 
do, from flipping on a light switch to starting up your car, to 
enabling this very hearing to operate, and unfortunately many 
people take energy for granted. Over the course of this past 
decade, it has been a fundamental goal of policymakers in 
Washington expand regulations across the energy sector of the 
economy to address climate change.
    During my work at Heritage, my colleagues and I have used 
various academic models that have been used to quantify the 
economic effects of climate change as well as the economic 
impact of the associated regulations. In our published work, we 
have found that statistical models aimed to quantify the 
economic effects of climate change are nowhere near robust 
enough to be suitable to guide regulatory policy. Furthermore, 
the regulations associated with decarbonization will result in 
devastating economic impacts with negligible impact on the 
climate.
    The primary metrics used by policymakers to justify carbon-
based regulations is the social cost of carbon, which is 
defined as the economic damages associated with a metric ton of 
carbon dioxide emissions summed across a particular time 
horizon.
    There are three primary statistical models that the Federal 
Government has called on to estimate, in the past--has called 
on in the past, excuse me--to estimate the SCC: the DICE model, 
the FUND model, and the PAGE model. Over the course of my work 
at Heritage, my colleagues and I have used the DICE and FUND 
models, testing their sensitivity to a variety of important 
assumptions. Our work, published both at Heritage as well as in 
the peer-reviewed literature, has repeatedly demonstrated that 
while these models might be interesting for academic exercises 
their assumptions can be easily manipulated by regulators and 
bureaucrats.
    These models make fundamental assumptions regarding climate 
sensitivity. The idea is that these models attempt to forecast 
temperatures centuries into the future to quantify the 
associated costs of CO2 emissions. A very reasonable question 
to ask is how accurate these forecasts actually are. 
Equilibrium climate sensitivity distributions are used to 
quantify the earth's temperature response to a doubling of CO2 
concentration. A vast amount of recently published research has 
shown lower than expected climate sensitivity to CO2. Indeed, 
our modeling has found recent sensitivity assumptions lowered 
the SCC by as much as 80 percent compared to Federal Government 
estimates.
    A more fundamental question completed avoided by the 
Federal Government is, are there actually any benefits 
associated with CO2 emissions? Well, the model often employed 
by the EPA actually includes these benefits in its calculation. 
In fact, under very reasonable assumptions there are 
substantial probabilities of a negative SCC, or in layman's 
terms, actual benefits, in some cases as high as two-thirds, 
resulting from greater CO2 prevalence, allowing increased 
agriculture and forestry yields. This negative SCC estimate 
would signify that CO2 emissions are not a cost but a benefit 
to society.
    Now I, of course, don't take the position that CO2 
emissions are either an overall positive or negative 
externality, but the sheer fact that the model could indicate 
either, under very reasonable assumptions, speaks volumes about 
how prone it is to user manipulation, which is precisely what 
government bureaucrats have been able to do in the past.
    So, the bottom line is regulations aimed at decarbonization 
are predicated on models that have been manipulated to justify 
a particular regulatory agenda. At Heritage, we have used a 
clone of the Department of Energy's National Energy Modeling 
System to quantify the economic impact of these and other 
policies. We modeled the economic impact of the Green New Deal. 
We found that the economic impacts would be quite devastating. 
In particular, by 2040, the country would see an average 
employment shortfall of nearly 1.1 million lost jobs, an up to 
30 percent increase in house electricity expenditures, and an 
aggregate $15 trillion loss in GDP.
    Now last, I will talk about the climate impacts of these 
policies. The primary goal of any of these decarbonization-
related policies is to reduce global climate change. At 
Heritage, we have one of the EPA's actual models, the model for 
the assessment of greenhouse gas-induced climate change, to 
quantify the climate impact associated with the policies that I 
have described. In one series of simulations, we assumed that 
the United States reduced CO2 emissions by 100 percent and 
attained a climate that is more sensitive than what was even 
assumed by the Obama Administration's interagency working 
group. We found that by 2100, there would be 0.2-degree Celsius 
temperature reduction and a miniscule 2 cm sea level rise 
reduction.
    In conclusion, statistical models used to quantify the 
economic effects of climate change are extremely sensitive to 
very reasonable changes in assumptions, and thus prone to user 
manipulation. Moreover, the regulatory policies regarding 
decarbonization will have a devastating economic impact and 
only negligible impact on the climate.
    Thank you for your attention and I look forward to your 
questions.
    Ms. Tlaib. Thank you, Doctor. Mr. Schuler, you are now 
recognized for your testimony.

STATEMENT OF REED SCHULER, SENIOR POLICY ADVISOR, OFFICE OF THE 
                 GOVERNOR, GOVERNOR JAY INSLEE

    Mr. Schuler. Chairwoman Maloney, Chairman Rouda, members of 
the committee, thank you for the opportunity to testify here 
today about solutions to the climate crisis. I am Reed Schuler, 
Senior Policy Advisor for Climate and Sustainability to 
Governor Jay Inslee of Washington State. Previously, I served 
at the U.S. Department of State as a negotiator of the Paris 
Agreement on Climate Change and as a member of the Secretary of 
State's Policy Planning Staff.
    In Washington State, when we talk about the climate crisis, 
it is in the present tense. This month it took less than a week 
for fires in our state to grow into the second-worst fire 
season ever recorded. The worst came just five years prior. 
These fires are without precedent in modern history. Even for 
the lucky ones among us, those without asthma, with jobs that 
allow us to work indoors, with homes that are not in the path 
of wildfires, the fires were awful, with air quality monitors 
up and down the coast recording the world's most polluted air. 
For nearly two weeks I couldn't safely let my children go 
outdoors. For the less fortunate, the costs were much greater--
hospitalizations, destroyed homes and businesses, lives lost, 
whole communities devastated.
    The fires are changing because the climate is changing, as 
Governor Inslee has said and the chairman repeated. According 
to the Federal Government's own assessment, over just the next 
30 years, the annual area burned in the western United States 
could increase two to six times from the present.
    Again, as Chairman Rouda emphasized this morning and as 
Governor Inslee has said, what we are experiencing are not 
wildfires. They are climate fires. And as Governor Inslee wrote 
last week in an open letter to the President, ``There is no 
fire suppression plan on this planet that does anyone any good 
if it doesn't even acknowledge the role of climate change.'' I 
want my children to grow up knowing a time year called summer, 
not fire season.
    While the story of these fires may feel distinctly western, 
climate change will not spare the rest of the country. From 
flooding, agricultural productivity losses in the Midwest, to 
rising sea levels in the Southeast, to more and more powerful 
hurricanes across the East Coast, climate change is spreading a 
dizzying array of risks across the country, and we know it is 
felt disproportionately by the most vulnerable among us, 
including the rural and urban poor, our tribal nations, and 
communities of color.
    But the worst of these risks are not inevitable. They are 
the costs of failure, and failure on climate change is the path 
that this administration has chosen. We have witnessed a deep 
hostility toward environmental stewardship at all levels, and a 
dismantling of decades of progress in protecting clean air and 
clean water.
    In 41 days, the formal withdrawal of the United States from 
the Paris Agreement will be complete. We, in Washington State, 
hope that our natural absence from the agreement will be brief, 
and so do the nearly 4,000 cities, states, tribes, colleges and 
universities, businesses, and faith groups who are part of the 
``We Are Still In'' movement across the country.
    Governor Jay Inslee is not waiting for sanity to be 
restored at the Federal level, and neither are the 24 other 
American Governors who make up the United States Climate 
Alliance, a coalition that represents the majority of the 
American population and is leading the way in fighting the 
climate crisis.
    Let me tell you about just some of the solutions that 
Washington State has put in place. We have ambitious, science-
aligned, statutory limits on carbon pollution, and a net-zero 
goal for 2050 to guide our overall efforts. We have passed a 
nation-leading clean electricity law that phases out all coal 
by 2025, requires carbon neutrality by 2030, and achieves 100 
percent carbon-free power by 2045, all the while incentivizing 
high wage and labor standards and increasing resources to 
assist low-income repayors.
    We are implementing a phase-down of super-polluting 
hydrofluorocarbons, or HFCs, some of which are thousands of 
times more potent than carbon dioxide. We have created a first 
of its kind statewide building performance standard for 
Washington's commercial buildings, helping to incentivize 
better use of energy and creating new jobs in the building 
construction trades.
    We are using a broad suite of tools to accelerate the 
deployment of electric vehicles on our roads and reduce carbon 
pollution from the transportation sector, and we are proud to 
be both a Clean Car state and a Zero Emission Vehicle state, 
fighting an illegal effort by this administration to tear down 
these policies.
    These climate solutions help, not hinder, our economy. U.S. 
Climate Alliance states have reduced carbon pollution at double 
the rate of the rest of the country, and at the same time we 
have also grown our economies more than 30 percent faster. So, 
you can understand why we are not listening to lectures on how 
to unlock economic growth by letting companies pollute freely.
    It is time to embark on a national mobilization to defeat 
the climate crisis and to harness the innovative, moral, and 
entrepreneurial spirit of the United States. We eagerly await 
the necessary restoration of Federal leadership to make that 
happen.
    Thank you to the committee for this important hearing and 
for the opportunity to testify today, and I look forward to 
answering your questions.
    Mr. Rouda. Thank you. The chair now recognizes 
Representative Norton for five minutes of questioning. Ms. 
Holmes Norton, are you on?
    Voice. First of all, I would like to take a moment to thank
    [inaudible].
    Mr. Rouda. If we could pause for one second here. Somebody 
is coming through that I don't think has been recognized. If 
they could mute their microphone. And Representative Holmes 
Norton, I believe you are ready and able?
    While we work on technical difficulties there, I will 
recognize the vice chair of this committee, Representative 
Tlaib, for five minutes of questioning. Representative Tlaib?
    Ms. Tlaib. Thank you so much, Chairman, and thank you all 
for being here with all of us.
    If this pandemic has taught us anything it is that we 
cannot simply return to what they called normal when this is 
all over, because normal wasn't working for millions of 
Americans across the country and for thousands and families in 
my district. And author and poet, Sonya Renee Taylor, put it 
perfectly. She said, quote, ``We will not go back to normal. 
Normal never was. Our pre-corona existence was not normal other 
than that we normalized greed, inequity, exhaustion, depletion, 
extraction, disconnection, confusion, rage, hoarding, hate, and 
lack. We should not long to return, my friends. We are being 
given an opportunity to stitch a new garment, one that fits all 
of humanity and nature.''
    So, to all my colleagues and to the witnesses, in stitching 
this new garment it is important to consider what it means as 
we try to transition into a green future and a green economy. 
My constituents, as chairman knows, who came to my district, 
knows that they are no strangers to what I call environmental 
injustice. I represent a district that contains fossil fuel 
facilities and corporate polluters throughout neighborhoods. As 
a result of the decades of pollution in my community, many of 
my neighbors suffer negative health impacts of this country's 
dependency on fossil fuels and lacks permitting rules, 
including children who are some of the highest asthma rates in 
the Nation.
    That is why it is important that we talk about climate 
solutions, we do so in a manner that is intentional and 
equitable. So, Dr. Cleetus, if we are not intention about 
centering frontline communities like my district as we fight 
climate crisis, what will happen to these communities?
    Ms. Cleetus. I think what will happens is already happening 
all around us, and we are seeing with the COVID crisis, the 
economic crisis, the climate crisis. This frontline and fence 
line communities are often the ones who are being 
disproportionately harmed when it comes to public health 
impacts, loss of jobs, loss of economic opportunities.
    So, what we have here is a very clarifying moment where, as 
you say, we should not be content with the status quo, business 
as usual. The good news is the opportunities here are immense, 
because we can do better. We must do better. With the cost of 
renewable energy falling year on year by double digits in some 
cases, with so many communities who are struggling to pay their 
energy bills who with the right access to these clean energy 
resources would be so much better off, this is a moment that we 
should lean into every opportunity we have here to make the 
kind of Federal Government investments and policies that would 
solve multiple problems at the same time, address the economic 
crisis, address these public health challenges, and help us 
address the climate crisis at the same time. We are not going 
to solve these crises unless we center equity injustice in our 
solutions.
    Ms. Tlaib. Thank you so much. I also want to spend some 
time here discussing the urgent need to also plan for impacts 
of climate change that vulnerable communities already 
experience and will experience in the near future. According to 
a report by Union of Concerned Scientists, 175 cities across 
the Nation will experience extreme flooding events by 2045, 
with 67 of those communities consisting of above-average 
poverty levels. As many of my colleagues know, I represent the 
third-poorest congressional district in the Nation.
    So, Doctor, what are some of the climate resiliency 
measures that can be put in place to protect these communities 
from extreme weather events?
    Ms. Cleetus. First and foremost, we have to recognize that 
these communities often are being hit repeatedly by these kinds 
of extreme weather disasters. With this hurricane season, for 
example, we have seen the Gulf Coast and East Coast being 
repeatedly exposed to these harms, the flooding, the loss of 
power, the public health negative impacts that fall on 
communities.
    So, the kinds of investments we need to make is, first and 
foremost, making sure that people have safe, affordable 
housing, that the investments and resilience in floodproofing, 
fireproofing, heatproofing that we are doing go to all 
communities. We need to make sure that we are upgrading our 
housing infrastructure to be energy efficient and climate 
resilient. We need to ensure that the public health investments 
that we are making reach people who are marginalized--the 
incarcerated, the homeless, people who live in public housing.
    We need to make sure that people can pay their energy bills 
to stay safe during extreme heat events. Currently, a lot of 
people are living in substandard housing or they can't afford 
or don't have air conditioning. People need access to these 
things.
    We also need to understand that longstanding systemic 
racism has created a situation where people have preexisting 
health conditions that are being exacerbated by climate change, 
so we have to be addressing that.
    Ms. Tlaib. No, and just last and I will yield, it is so 
important for all my colleagues to know, and I look at one of 
my senior citizens who told me, especially during this pandemic 
she felt like the environmental racism, the fact that she lived 
in the most polluted ZIP code in the state of Michigan, where 
Chairman Rouda came to visit, she felt like we giving 
permission to kill her. She really, truly felt completely 
unseen and unheard, and I think a lot of that is because of the 
climate crisis, the fact that we haven't really been aggressive 
enough on the climate crisis.
    So, I yield, and thank you again, Chairman, for always 
highlighting these issues.
    Mr. Rouda. Thank you, Vice Chair Tlaib. The chair now 
recognizes the ranking member from Tennessee, Mr. Green, for 
five minutes of questioning.
    Mr. Green. Thank you, Mr. Chairman, and again thanks to all 
the witnesses for their time today and their thoughts.
    My question, I want to direct my first question to Dr. 
Dayaratna. Sir, there have been a lot of proposals from the 
majority that look to address climate change. Many of those 
proposals aim to do this by introducing taxes and burdensome 
regulations on the energy sector. Have you done research into 
the costs and benefits of these policies, and if you could 
elaborate on that?
    Mr. Dayaratna. Thank you for the question, Congressman. I 
have indeed. At the Heritage Foundation Center for Data 
Analysis we have the Heritage Energy Model, which, like I said, 
is a clone of the Department of Energy's National Energy 
Modeling System. So, we use this to score various energy 
policies.
    And what we have found is that these policies, they not 
only failed the test of cost benefit analysis, they failed the 
test of cost benefit analysis miserably. For example, the Green 
New Deal, we scored that. That would have, over a 20-year time 
horizon--and by the way, when I scored the Green New Deal it 
literally crashed this government model. I had to backtrack the 
carbon dioxide emissions down from 100 percent to 50 percent or 
so to get the model to actually be able to handle it.
    But the bottom line is even after a 58 percent reduction in 
CO2 emissions, over a 20-year time horizon, the Green New Deal 
resulted in an average employment shortfall of 1.1 million lost 
jobs, a peak employment shortfall of over 5 million jobs, and 
an average loss of income of over $165,000 of income for a 
family of four, and a total $15 trillion loss in GDP, all for 
negligible changes in the climate, less than 0.2 degrees 
Celsius temperature reduction and less than 2 centimeters of 
sea level rise reduction.
    So, you see it is quite apparent that these policies have 
significant economic costs--that is an understatement--and 
effectively no environmental benefit. Very negligible.
    Mr. Green. Thank you for that. I know that there are a 
couple of different ways of calculating social costs of carbon, 
and I wondered if you would elaborate on that and perhaps how 
easily they can be manipulated.
    Mr. Dayaratna. Yes, there are indeed a variety of ways to 
calculate the social cost of carbon. So, there are three main 
statistical models, as I alluded to in my testimony, that the 
Federal Government had used--the DICE model, the FUND model, 
and the PAGE model.
    We took the DICE and FUND models inhouse. The PAGE model we 
did not take inhouse because the author, Chris Hope, 
specifically insisted on co-authorship in exchange for giving 
us his code, so we felt it precluded us from being able to do 
any independent analysis.
    So, we took the DICE and the FUND models, and we played 
with the assumptions, and what we noticed is that these models 
are very, very sensitive to extremely reasonable changes in 
assumptions. For example, these models foolishly make 
projections 300 years into the future. We have no idea what the 
American economy will look like 300 years from now. It is like 
saying that George Washington would know what the economy would 
look like today. And these models foolishly make these 
projections.
    If you cut the time horizon back to, still unrealistic but 
more realistic, 150 years, you get a drastically lower estimate 
of the SCC, around 20 percent lower. If you change the discount 
rate, specification of a discount rate--in fact, the Obama 
Administration interagency working group specifically ignored 
advice from the LMB to include a seven percent discount rate--
you not only reduce the social cost of carbon, under some very 
reasonable assumptions the social cost of carbon can even be 
negative. And when the social cost of carbon is negative, then 
that signifies that the benefits exceed the costs, and CO2 is 
an overall positive externality.
    And last, the climate sensitivity distribution. Quite 
frankly, the previous administration beefed up the climate 
sensitivity assumptions in the use in calculating the social 
cost of carbon to beef up the SCC as high as it could. And when 
you use more realistic climate sensitivity assumptions you can 
also get a drastically different and lower estimate, 
potentially even negative estimate of the SCC. Again, under 
some very reasonable assumptions, it can be negative.
    And actually let me just say, since I still have a little 
bit of time left, in another recently peer-reviewed paper we 
also looked at the agricultural benefits of CO2 emissions and 
played with those assumptions, and again, even under the 
discount rates that the Obama Administration instated on using, 
even under those you still get a negative estimate of the SCC.
    So, with these results literally all across the map--
positive, zero, negative--it makes no sense to me how 
policymakers can even use these models with integrity. Then can 
be manipulated to get pretty much any result that you want.
    Mr. Green. One last quick question. I was reading an 
article the other day in the journal about deserts that are 
greening. I assume that is from aerial fertilization and the 
CO2. If you could just talk a little bit about that. I think 
you implied that when you about the positive impacts, and if 
you would just elaborate a little bit on that.
    Mr. Dayaratna. So, in one of my recent papers, co-authored 
with Ross McKitrick and Pat Michaels, we talked about the 
agricultural impacts of CO2 emissions, and we referenced a 
paper, ``Hsu et al.'' from the Journal of Nature in 2016. What 
it illustrates is the planet is greening, and some areas are 
benefiting significantly from greening over the last 20 years.
    Mr. Green. Thank you. I yield.
    Mr. Rouda. Thank you. The chair now recognizes 
Representative Norton for five minutes of questioning.
    Ms. Norton. Before I go to my questions, I want to 
challenge The Heritage Foundation witness to quote experts that 
agree with his assessment.
    I have a question first for Mr. Schuler, because of what is 
happening as I speak. Can you hear me?
    Mr. Schuler. Yes.
    Ms. Norton. As I speak, because of what is happening as I 
speak in Washington State. We have a real-time example of 
record-breaking, in the case of Washington State, wildfires. Of 
course, we are having record-breaking hurricanes, unprecedented 
wildfires. I am not sure what kind of evidence more we would 
need.
    Mr. Schuler, if we continue down the path of inaction that 
the United States is on, like other countries from China to 
Europe, for example, what are some of the concerns that you 
would have about the health of Americans living in the western 
part of the United States?
    Mr. Schuler. Thank you, Congresswoman, for the question. 
So, health concerns for us are paramount at the moment. 
Obviously, we are dealing with an extraordinary pandemic, but 
we see, too, that the effects of climate change, in so many 
areas of our economy, are worsening existing challenges. So, we 
are dealing with a whole span of effects, everything from 
Congresswoman Tlaib discussed the incredible impacts, people in 
her district, of the fossil fuel industry directly. So, we see 
these impacts in the form of conventional air pollutants, 
hurting people's lungs, giving them chronic obstructive 
pulmonary disease and other respiratory conditions.
    Then down the road, as we look at the creeping health 
effects of climate change it is manifested in so many different 
areas. The wildfires, as you discussed, are one of the most 
immediate, and the impact of the smoke on people's lungs is 
very serious. There is a gradation of air quality index and it 
starts with, you know, of some concern, of some concern to 
people with vulnerabilities, and it rises all the way to 
hazardous for all of us. So, even folks----
    Ms. Norton. We have already seen what the air looks like in 
Los Angeles. It is incredible to think of people having to live 
like that. So, I understand your point.
    I wanted to ask Mr. Castro, because I wanted to go from the 
West to the opposite side of the country, to see how universal 
in many ways climate change is. Mr. Castro, what are the 
current concerns you have for the city of Orlando, as well as, 
for that matter, the rest of Florida, the other side of the 
country? Is there a continuance of absence of--how is the 
continuance of absence of leadership happening in Florida?
    Mr. Castro. Thank you, Congresswoman. Certainly Florida is 
ground zero, as we often say, for climate change impacts, 
everything from rising sea levels as we are seeing and storm 
surges that are actually starting to eat away at our 
coastlines. But obviously the, you know, superstorms that are 
being fueled by warming oceans--and I think the best example 
that I can share with you is the 2017 hurricane season that 
really impacted the entire state, Hurricane Irma and Hurricane 
Maria.
    When we were doing our climate vulnerability and risk 
assessment, in Orlando specifically, one of the things that has 
come up is climate migration as a major risk in vulnerability 
to our city, figuring out ways in which we can essentially 
welcome an influx of people. It is projected that by the end of 
this century over 500,000 people may move specifically to 
central Florida because of climate change impacts directly to 
the Caribbean and the coastlines of Florida.
    So, the health and well-being of Floridians are being 
impacted because of the lack of leadership, but we are hopeful 
that we can continue to move forward, and the bill that is 
being proposed today could be major steps in the right 
direction.
    Ms. Norton. Mr. Schuler, I must say, because of your 
previous position, Mr. Schuler, as Secretary Kerry's, on that 
team that negotiated the Paris Agreement, where there was near 
universal agreement to try and keep global warming below 2 
degrees Celsius, could you briefly describe some other benefits 
that were discussed which led to that agreement? Remind us 
about that agreement.
    Mr. Schuler. Absolutely. Thank you, Congresswoman. So, the 
Paris Agreement was a truly breakthrough, multilateral 
agreement in our history that required sustained leadership by 
the United States with our allies and partnership with 
countries around the world to achieve. It was no easy thing 
because it required cooperation among countries large and 
small, countries rich and poor, major emitters and small 
emitters.
    It was all designed around the goal of limiting the most 
extreme warming and showing every country that through 
collective partnership, like putting forward strong targets and 
then seeing the targets of other countries, that we could break 
through the most incredible collective action problem the world 
has ever seen, and work together to limit emissions, from major 
emitters like Saudi Arabia and China and the United States all 
the way down to tiny island nations with virtually no 
emissions, but standing to risk extreme sea level rise. And the 
Paris Agreement was the first major step on that pathway to 
global harmony with now, as you said, the United States being 
the only country in the world to signal that we will not be a 
part of that. It is a truly tragic thing.
    Ms. Norton. I think it--my time has expired but I think it 
was worth hearing about where we were, the progress we have 
made, and now how we have been thrust back once again. Thank 
you very much, Mr. Chairman.
    Mr. Rouda. Thank you, Representative Holmes Norton. The 
chair now recognizes the chair of the entire Oversight 
Committee, Chairwoman Maloney.
    Mrs. Maloney. Thank you so much, Mr. Chairman. From day one 
the Trump administration has undermined science and evidence-
based strategies to address the climate crisis. We must reverse 
this damage of the last four years by acting swiftly to make 
the United States a leader in the climate challenge and the 
climate responsibilities.
    Mr. Schuler, in what ways would a more coordinated climate 
resiliency response by the Federal Government assist states 
such as yours and Governor Inslee's efforts?
    Mr. Schuler. Thank you, Chairwoman. I mean, the benefits 
would be enormous. Let me just detail a few categories.
    So, first of all we would shift some of our efforts from 
this incredible defensive action that we have all been forced 
to fight over a period of years. So, a Federal Government that 
was willing to work with us to set a basic minimum floor for 
action but to provide resources and help support states in 
going farther, as compared to this administration, that, 
instead, has focused its efforts combatting what states are 
doing, working to restrain us at every chance it gets. It would 
just be a profound sea change.
    So, we look forward to working with a Federal Government 
that will help us to reduce air pollution from the power 
sector, from our transportation sector, from industry, provide 
additional investments in helping to ensure that American 
businesses are going to, as Dean Orr discussed, be competitive 
in our global future, instead of harkening back to past 
technologies that are not going to continue to take us the 
distance. That would be an incredible thing.
    On the resilience side, a Federal Government that is a true 
partner in helping to defend all of our communities from all of 
the different climate impacts that they see, that would be an 
enormous thing. When we hear the President criticize forest 
management practices in the West, it is not lost on us that his 
budget annually attempts to strip hundreds of millions of 
dollars from the Federal forest and firefighting efforts, 
including investments that go to states.
    So, we would look for a Federal Government that has our 
back and is going to help defend our people against the effects 
of climate change.
    Mrs. Maloney. Thank you. It has been a glimmer of hope that 
so many states have remained committed to addressing climate 
change even in the total absence of Federal leadership. Take 
the United States Climate Alliance. In direct response to 
President Trump's announcement that he planned to withdraw the 
United States from the Paris Agreement, Governor Cuomo, 
Governor Inslee, Governor Brown banded together to create this 
alliance of Governors who are all working to meet the goals of 
the Paris Agreement.
    Mr. Schuler, I understand from your written testimony that 
since its inception the alliance has grown to include 25 
Democratic and Republic Governors. Could you describe the 
innovative strategies these Governors are taking?
    Mr. Schuler. Thank you, Chairwoman. So, these Governors, 
Democratic and Republican, as you said, are the true 
laboratories of democracy. We are doing that hard work both to 
experiment with and develop new policies, and also to work in 
lockstep to accelerate the deployment of policies that we know 
work. So, we are working in every sector. We are thinking about 
both how to take forward major areas of progress, like 
reductions in power sector emissions, with one after another 
state coming out with a new 100 percent clean electricity law, 
to cooperation in the transportation sector, increasing the 
number of states that are signing up to the most aggressive 
vehicle emission standards, to increasing work in the natural 
and working lands space, where we can think about how to 
provide additional incentives to so many different kinds of 
businesses that make use of lands, from agriculture to 
forestry, how we can combine the resilience goals with 
additional carbon sequestration efforts. Our states are working 
together every single day to make these things happen.
    So, it is both about the state-specific work of protecting 
our own communities from these distinctive harms and taking 
advantage of our distinctive economies in our own states, and 
also that collaborative work to push back against the 
extraordinary assault on environmental protection from this 
administration over the last few years.
    Mrs. Maloney. Thank you. Mr. Castro, could you briefly 
describe strategies you are implementing to electrify the 
transportation sector that also may prove to be effective on 
the Federal level? Mr. Castro.
    Mr. Castro. Thank you, Chairwoman Maloney. Yes, we are 
doing a number of things to accelerate more EV adoption. First 
and foremost, we know that public EV charging stations are 
really critical for us to get around some of the range anxiety 
issues that residents have, and folks have around electric 
vehicles.
    We are also working very closely with our utility, as I 
mentioned, to help enable more rebates for those who buy and 
lease electric vehicles, and in addition to that, working 
across with our hospitality and tourism associations and many 
of the theme parks here in Orlando to ensure that have an EV-
ready destination. In fact, in 2015, the city launched the 
first electric vehicle rental car program, Drive Electric 
Orlando, where individuals can come here, rent an EV, and have 
a zero-gas station experience here, zero emissions, and a 
wonderful experience.
    Mr. Rouda. Thank you, Madam Chair. The chair now recognizes 
Mr. Gibbs for five minutes of questioning.
    Mr. Gibbs. Thank you, Mr. Chairman. Sorry I couldn't be 
here to listen to the testimony, but I do want to raise some 
issues with the wildfires out in Oregon and California and 
Washington State, out west. Does anybody--I just heard a 
comment from one of the witnesses that it was lack of Federal 
funding. I don't know if Mr. Dayaratna or anybody wants to 
comment, if they would allow the timber leased lands and FISA 
funding, because my understanding, for 20-plus years now, since 
we pretty much stopped timbering on Federal lands. So, I would 
like to start there and then I have a submission to make. Does 
anybody want to address the issue about timbering out there?
    I guess not. OK. Mr. Chairman, for the record, as my staff 
did this, I have two photos, and one--these are photos taken 
east of Roseburg, Oregon, OK. In the one photo there is a fire. 
It is not out of control. It is an area that has been timbered, 
and the forestland has been managed. The other photo is a 
nearby area where the timberland has not been managed, and it 
looks like a volcano compared to the other one here.
    And this is just illustrating, if we actually manage our 
forestlands out there, we can prevent a lot of this catastrophe 
and loss of property and life and everything else that goes 
with that, and all the carbon that has been emitted into the 
atmosphere. So, if we are truly concerned about our carbon 
emissions, we ought to be managing our forestland.
    Because I have heard anecdotal information that the lands--
there is some land out there that is privately--private forest 
land is managed, and it doesn't have these fire issues. And if 
they do have a fire issue it is a lot less severe and they can 
control it. But when you haven't timbered and done anything at 
those forestlands in 20-plus years, you have a lot of fuel on 
the ground, and now, of course, it is warm and dry out there. 
Fortunately, in the last day or so, there is more rains moving 
into that area, fall weather, and so hopefully, at least in the 
Oregon-Washington area that should help fight some of those 
fires.
    So, I just wanted to submit to the record these two photos 
that my staff sent, illustrating where forestlands have been 
managed, the damage is less extensive and controllable, 
compared to an area that has not been managed, that has all 
that dead wood, brush fuel, to fuel the fires. I don't have any 
other questions for the witnesses, but I think it is vitally 
important that we manage these forestlands out there, because I 
can't--I don't know if anybody wants to comment.
    You know, we talked about the smoke. I know we saw smoke in 
Columbus, Ohio, in some of the sunsets, and you said about the 
upper atmosphere was carrying it even to Europe, and the carbon 
that was emitted by this. You know, if anyone wants to comment 
about, you know, if we didn't have the severity of these fires 
in these forestlands, what the difference would have been in 
the carbon emission from these terrible, catastrophic fires. 
So, I don't know if anybody wants to address that or not.
    Ms. Cleetus. Sure. Thank you, Representative Gibbs, for 
raising this issue. The reality is that the science shows very 
clearly that what are driving conditions fueled by climate 
change are a major contributor to the kind of really
    [inaudible] they are seeing in the western U.S. right now. 
There is no question that mismanagement of forest development 
in wildfire-prone areas is also exacerbating this, to people, 
to property, and that we do need to do better with ecological 
criteria in mind. This is not about timbering. This is about 
managing the health of our forests, and there are certainly 
more things that we need to do to address this.
    But it would be folly not to recognize the role that 
climate change is playing, a very, very clear role the 
significance of climate change in contributing to these hotter, 
drier conditions that are making our wildfire seasons longer, 
more intense, more destructive. This is very, very clear----
    Mr. Gibbs. I will just stop you----
    Ms. Cleetus.
    [Inaudible.]
    Mr. Gibbs. I will stop you because I have only got 25 
seconds. You know, even a one-degree change, it is hard to 
believe that that is causing this more severity in the fires, 
that one-degree change in the temperature. But I think we could 
have a more immediate impact by managing these forestlands to 
prevent the fuel there for these fires. Because it is a long-
term goal to address the temperature change that may or may not 
be causing warmer temperatures and less humidity and drier 
heat.
    So, I would just close. My time is out. But I will submit 
these for the record and just advocate for let's manage our 
public forestlands out there and get some revenue from the 
timber. I yield back.
    Mr. Rouda. And without objection, the documents are 
introduced into the record. So moved.
    Mr. Rouda. At this time I would like to recognize myself 
for five minutes of questioning, and I really don't want to 
focus on empty rhetoric about whether the science is true that 
humankind is causing climate change. The science is settled. I 
want to recognize that I am interested in trying to work with 
members across the aisle as well as members in my caucus to 
find solutions and not denigrate ideas offered by others.
    With that let me turn to some questions here for our 
witnesses, that I am so thankful who have joined us here today.
    We want to look at and understand how the Federal 
Government can play a greater role in providing the economic 
incentives to advance changes that truly address climate 
change, not just here in the United States but globally, and 
allows the United States to be a leader in creating these new 
industries, these new good-paying jobs that we can have right 
here in the United States, as well as export that technology 
worldwide.
    Clearly, transportation and industrial sectors play a huge 
role in the sourcing of climate change and overall carbon 
emissions. Dr. Cleetus, which sectors of our economy do you 
think are best positioned to help drive nationwide 
decarbonization efforts?
    Ms. Cleetus. Well, right now the power sector is an 
incredibly promising place to look. We are already in a moment 
where we have about 20 percent of our electricity is renewable 
energy. We have seen calls for, here and in Europe, for wind, 
for solar, for battery storage. The EIA is projecting that wind 
and solar will be the fastest-growing sources of new power this 
year in our country.
    So, we need to take this momentum and really accelerate it, 
using Federal policy, and state policies. This is an area where 
we can create jobs, we can make the kind of investments that 
would benefit public health, and we can rapidly cut our 
emissions.
    So, I see this as a very promising sector. Transportation, 
as well, electrifying transportation is a really very great 
opportunity for us. And as others have pointed out on the 
panel, other countries are taking these measures. We need to be 
part of the revolution.
    Mr. Rouda. Dr. Orr, I believe there is a statistic I have 
come across that for every $1 we have provided in incentives 
for renewables we have provided $80 for fossil fuels. And I 
think in your opening testimony you said that even today for 
every $1 we provide for renewables we provide $3 for fossil 
fuels.
    Can you talk a little bit about what you think the result 
would be if we at least parity in supporting renewables at the 
same level we do fossil fuels, or better yet, reverse those 
numbers 3-to-1 for renewables?
    Mr. Orr. Thank you, Mr. Chairman. Indeed it is true that 
just about all of the analysis about the impacts of investments 
in renewables come out dramatically in favor of renewables 
versus fossil fuels. The bottom line is that the industries of 
the future are not going to be fossil fuel based. The longer we 
delay our transition to the future energy sources, the more we 
will be disadvantaged vis-`-vis the rest of the world, but also 
the more that we will not have the ecosystem that we have 
depended on in this country for innovation.
    If we do not keep up our national R&D investments in areas 
around energy, around transportation, around batteries, around 
all the technologies of the future, and we just try to dig in 
and hold the line with the industries that we have dominated 
for decades, and even over a century, in oil and gas, coal, if 
we tried to dig in it is economically foolhardy. But it also 
stops us from the kinds of investments we need to get the next 
technologies.
    The United States is an innovation powerhouse. I currently 
work at the University of Maryland. We have the best university 
system in the world. We have more capacity in our laboratories, 
in our universities. That can be harnessed. Federal Government 
funding goes a long way to leverage private funding on 
innovation.
    So, it is the innovation economy that we are talking about 
here, and that is jobs, and it is jobs that are going to be 
around for the future. Quite honestly, I think the debates 
around coal are pretty much settled in the sense that 
economically it is not viable, but it is around oil and gas 
that we need to make forward-looking calculations, to save our 
own jobs but also to build the innovation framework for the 
future.
    Mr. Rouda. And the energy companies which have tremendous 
experience in not just the production and development of energy 
from fossil fuels. They also have tremendous knowledge and 
innovation in renewables. And if the tax code aligned with 
producing renewables at a greater rate to drive shareholder 
value, don't you agree that the energy companies could actually 
help lead us as we make this shift from fossil fuels and CO2 
emissions to renewables as being the fundamental backbone of 
the energy production of our country?
    Mr. Orr. Yes, Mr. Chairman, and it is an extremely 
important point. Our oil and gas companies need to become 
energy companies. If we provide the incentives for them, they 
can compete with anybody in the world. The fact is right now a 
number of other oil and gas companies around the world, from 
Saudi Aramco to BP and Shell and any and a whole range of non-
American oil and gas companies are diversifying at a rapid 
clip. American oil and gas companies are not, and the reason 
they are not is because there is not much incentive here in the 
United States for diversifying. It would be economically wise 
but also tremendously important for our climate if our 
companies lead the way.
    Just last year, three U.S. oil companies finally joined the 
Oil and Gas Climate Initiative. It is a group of 14 different 
oil and gas companies from around the world that tend to be the 
most efficient and most effective companies in the oil and gas 
sector. That is the kind of club that is transitioning itself 
as fast as it can, because they see their future in that 
transition. We need to make sure we are not holding back our 
own companies from making the transition they have to make to 
survive.
    The issue of fossil fuel subsidies is a global one, and we 
need to look at our own subsidies and where they go. It totally 
warps the incentives for our companies to become competitive in 
the 21st century.
    Mr. Rouda. Thank you. I know I am over time, but I do want 
to ask one other quick question of Mr. Schuler. Mr. Schuler, 
Governor Inslee from the great state of Washington has been an 
advocate for deep economy-wide action to move us to renewables 
and away from the fossil fuel industry. Is there one thing, one 
policy that Washington State has implemented that you think 
would be important to bring to our attention at the Federal 
level?
    Mr. Schuler. Thank you, Chairman. I think, in brief, 
probably the one that I would highlight would be our Clean 
Energy Transition Act, that has promised to take Washington 
from already one of the cleanest electricity sectors in the 
country to definitively zero carbon. We are showing that it can 
be done, that there is political will that we can do this in an 
equitable way that provides for worker transition, for low-
income people, and that at low, low cost can help all of us 
move to carbon-free power. I think it is a powerful example for 
the rest of the country, and I hope it is something that the 
Federal Government can take urgent action on soon.
    Mr. Rouda. Thank you very much. That ends my time of 
questioning. The chair now recognizes Representative Palmer for 
five minutes of questioning.
    Mr. Palmer. I thank the gentleman. I have a question for 
Dr. Dayaratna.
    In an earlier hearing for this subcommittee your colleague 
at The Heritage Foundation, Nick Loris, testified that the U.S. 
could cut its carbon emissions by 10 percent and it would not 
make much of a difference with regard to warming temperatures. 
Is that because such cuts would impact only our national 
emissions and climate change is a global phenomenon?
    Mr. Dayaratna. Greenhouse gas--can you hear me? Yes. Those 
simulations results are from using the Model for the Assessment 
of Greenhouse Gas Induced Climate Change. So yes, part of this 
is because the United States constitutes a small fraction of 
global emissions, and therefore cutting emissions is not going 
to have that 10 percent--any meaningful impact whatsoever.
    But even if--I was alluding to this earlier--in fact, the 
slides I gave you guys, if you look at Slide 8, I think they 
have been printed out for you guys, Slide 8 where I have the 
climate impact for, say, the Green New Deal, where we simulated 
the impact of eliminating CO2 emissions from the planet 
completely. Under a variety of sensitivity assumptions, climate 
sensitivity assumptions, even assuming a 4 1/2 degree climate 
sensitivity, which is much higher than what the Obama 
Administration's interagency working group assumed, and is the 
upper bound of the IPCC's recommended range of climate 
sensitivity, you still have less than 0.2 degrees Celsius 
temperature impact by the end of the century.
    So, emissions reductions in the United States are not going 
to have any meaningful impact, climate-wise.
    Mr. Palmer. Well, I don't know if you are aware but I also 
serve on the Select Committee on the Climate Crisis, and we had 
a hearing, and among the witnesses was a lady who was one of 
the editors, one of the lead people on the International Panel 
of Climate Change. It may have been the fourth or fifth report. 
I asked those three scientists who were the witnesses for my 
colleagues across the aisle, if the United States went to 
absolute zero emissions, would it stop climate change? And 
their response was no. I followed that up and said if the 
entire world went to zero carbon dioxide emissions, would that 
stop climate change? Again the answer was no, it would only 
mitigate the impact. As you just pointed out----
    Mr. Dayaratna. Yes, I mean, I have done the modeling 
myself, but there you have it, it is not just me saying it. You 
have other people saying it as well.
    Mr. Palmer. Well, these are people who are proponents of--I 
would assume are proponents of the Green New Deal, which, as we 
know, has absolutely nothing to do with climate change. It is 
more about changing the economy.
    But the point is that the things that we are focused on 
will not impact climate and the climate is changing. This is 
what concerns me: the climate is changing. There are things 
that we need to be doing to adapt and mitigate. There is great 
potential in emerging technologies for addressing CO2 
emissions, and other areas that we are going to have to make 
some changes, that we are not addressing, because we are 
chasing the wrong thing.
    Mr. Dayaratna. Absolutely. So, I am in favor of, you know, 
removing all subsidies and credits from the market, and letting 
all types of energy, completely leveling the playing field, 
ranging from renewables to all other forms of energy, and 
letting the best one win. And that would be the most optimal 
way to deal with the situation.
    Mr. Palmer. Well, I have had other witnesses----
    Mr. Dayaratna. Yes, like you said, these policies are not 
going to have any impact. I mean, you are not going to be able 
to pass a bill and have it magically changed the weather. It is 
absolutely ridiculous.
    Mr. Palmer. Well, in another hearing I had another witness 
for my colleagues across the aisle that explained to me that 
China has an aggressive plan to meet their emissions reductions 
by 2030. It has now been moved to 2060. But if that were the 
case China wouldn't be building coal-fired plants, one about 
every two weeks. I mean, there are just some really absurd 
things being said and proposed to address climate change that 
are going to have zero impact.
    Mr. Dayaratna. I mean, that is the thing. So, for those who 
are serious about changing the climate, I mean, they are just 
looking at the wrong policies, because a lot of these policies 
are not going to have any impact. I mean, these bills are not 
going to magically change the weather. Again, I will reiterate 
that.
    Mr. Palmer. It is going to change the quality of life, 
though, for individuals, so an impact on the economy.
    Mr. Dayaratna. Yes, they will change the quality of life, 
yes.
    Mr. Palmer. Yes. I yield back and I thank the chairman.
    Mr. Rouda. Thank you. The chair now recognizes 
Representative Gomez from the great state of California.
    Mr. Gomez. Thank you so much, Mr. Chairman, and thank you 
for having this hearing on climate change. One of the things 
that makes me laugh is that when it comes to showing the United 
States leadership on this issue, Republicans all of a sudden 
say, ``You know what? We shouldn't do that because the other 
side, the other countries are not going to follow suit, but 
they are not doing X, Y, and Z.'' But sometimes you have to 
lead, right? Not sitting back and waiting for the other 
countries to lead, and that is one of the benefits of being the 
United States. We have the economic power, the cultural power 
to actually change things, if we decide to engage, right?
    We can change things. We can make things better. Right now 
I represent L.A. in Congress, but I represented L.A. in the 
State Assembly. We were taking on these issues for a while, by 
trying to develop policies that not only combat greenhouse gas 
emissions and lower them, but also the other determinants that 
are caused by global warming. So, we were looking at it in a 
more holistic way.
    It is something that we know-- one thing-- is that it costs 
more not to do anything, right? It costs more in the long run 
not to do anything. Why is the military concerned about global 
warming? Why does the military have report on report looking at 
global warming and how they have to adapt? Because it is real, 
and it is occurring. So, it is the same thing we should be 
doing here in the states.
    One of the questions I had is, we know climate change has a 
disproportionate impact oftentimes on people who live in 
certain areas, people who are often poor that don't have the 
resources. Dr. Cleetus and Mr. Castro, are there any strategies 
that we can implement at the Federal level in order to deal 
with that disproportional impact or help the people that don't 
have the necessary resources to weatherize their homes, to move 
from one location to another, to, you know, buy electric cars? 
Are there strategies that we can implement at the Federal level 
that really target the working class?
    Ms. Cleetus. Absolutely, and I think the most important 
thing we need to do is get out ahead of this and make these 
investments instead of just post disaster, picking up the 
pieces after the terrible toll that it takes on people.
    So, there are some very common-sense things we can do. We 
can make sure that our investments in resilience and adaptation 
are being targeted to these communities. Some have suggested a 
40 percent off Federal investment targeted to communities that 
have been marginalized and left behind, communities that are 
facing a disproportionate burden
    [inaudible]. So, that is an important step we can take.
    We can make sure that we are extending economic 
opportunities in these communities and building that kind of 
infrastructure that is climate resilient and no carbon. We can 
cut their energy bills by investing in clean energy that is 
more affordable, so that they are not just being exposed to 
pollution from fossil fuels as well as paying high energy 
bills.
    So, there are many tools for us here that can help us cut 
emissions and address these inequities, and we should lean into 
them.
    Mr. Castro. And, Congressman, in addition to that great 
response I would also say that HUD plays an incredible role 
with the allocation of CDBG and other dollars at the local 
level, which we depend upon to help build out affordable and 
attainable housing, and putting restrictions on ensuring that 
we are not building the worst housing by law but we are really 
going above and beyond the code to ensure efficiency and not 
continuing to burden these low-income communities with high 
energy bills. Often not only are they burdened with higher 
energy bills disproportionately, they are also often in 
environmental justice zones throughout our communities that are 
getting, you know, more impacted by air quality issues. Then, 
of course, you have the issue around, you know, when we get 
hit, they are often the least resourced and most impacted and 
hardest to rebound.
    So, you know, I do certainly agree that putting some 
criteria around those dollars and ensuring that we are 
prioritizing efficiency into our environmental quality and 
health of those occupants could make drastic impacts, not only 
on their lives but on the climate.
    Mr. Gomez. And that is one of the things that I want people 
to understand. When we say we are going to combat climate 
change, it doesn't mean that it will be a cost to people, 
right, breaking up their livelihoods, how they get from their 
home to work or school. It is about enhancing and improving 
their lives. But you have to target the resources to those 
communities. You can't leave them behind. That is why I 
introduced a bill to make sure that people who are lower income 
can get access to electric vehicles at a similar price point.
    So, it is all about how do you make life better for people 
on the ground, and I say if you do that, the coalition to 
combat climate change will all get bigger and stronger and 
understands that it is not one thing versus another one, but 
both of them at the same time.
    So, thank you, I appreciate it, and I yield back, Mr. 
Chairman.
    Mr. Castro. Thank you, Congressman.
    Mr. Rouda. Thank you. The chair now recognizes the ranking 
member for any closing comments he would like to make.
    No closing comments. With that, a few closing comments on 
my part. We have had numerous of these hearings, and I know 
that my colleagues across the aisle don't believe in the Green 
New Deal. And I think it is not because they don't believe 
climate change is real. They don't believe that is the right 
way to address it.
    I believe my colleagues across the aisle believe in climate 
change. I believe my colleagues across the aisle want to 
address climate change. They believe the science. They believe 
there are ways we can address it. And I would hope they will 
work with us to find those policies that we can agree on to 
advance forward for the benefit of our kids, our grandchildren, 
and future generations as we all try and address this issue 
that we know is real. The science supports it. It is not a 
question of if-- it is a question of how we get this done.
    Gary--Representative Palmer--would like to make a couple of 
closing comments as well, so let me defer and yield over to him 
for a closing statement.
    Mr. Palmer. First of all, I would like to thank the 
chairman for your comments, and I associate myself with your 
remarks, because we do believe that the climate is changing and 
it poses serious risk for our country and for our future.
    I ran a think tank for 24 years and was very involved in 
these issues, particularly with climate change. And frankly I 
am convinced that while CO2 obviously is a--contributes to 
global warming, if we--as these scientists have said, if we 
completely eliminated CO2 it wouldn't stop climate change. I 
think we need to continue to invest in technology to reduce CO2 
emissions. MIT is doing some fantastic work on carbon capture, 
and methane, for that matter.
    So, there are emerging technologies, I think, that will 
really help us in this area. But I think we have also got to 
take seriously the things that are happening through natural 
variation, that will result in sea level rise, maybe not at the 
level that some folks have put out there, and other issues that 
are going to change weather patterns that we need to be 
prepared to adapt to.
    So, I commend you for your comments and recognizing that 
this is a serious problem that we do need to work together to 
solve. And yes, I do not think the Green New Deal is the way to 
do it, but I do think that we have the capacity, the 
intellectual, technical capacity to address these issues and do 
it in a way that not only benefits our country but the whole 
world.
    And I yield back.
    Mr. Rouda. Thank you for your comments, and I also know 
that we all agree that while we can disagree on the impact and 
pace of climate change and what are the contributing factors, 
we all agree that less CO2 emissions is better for our health 
and the health of our fellow Americans.
    In closing, I want to thank our panelists for their 
remarks. I want to commend my colleagues again for 
participating in this very important conversation. With that, 
without objection, all members will have five legislative days 
within which to submit additional written questions for the 
witnesses, to the chair, which will be forwarded to the 
witnesses for their response. I ask our witnesses to please 
respond as promptly as you are able.
    This hearing is adjourned.
    [Whereupon, at 3:57 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
